                                                                   AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
RESTORATION PROGRAM GRANTS
Awarded to the State of Oregon, Department of Fish and Wildlife,
From July 1, 2010, Through June 30, 2012




Report No.: R-GR-FWS-0005-2013                                     July 2013
                                                                                         July 26, 2013

Memorandum

To:            Daniel M. Ashe
               Director, U.S. Fish and Wildlife Service

From:          Hannibal M. Ware
               Eastern Regional Manager for Audits, Inspections, and Evaluations

Subject:       Final Audit Report – U.S. Fish and Wildlife Service Wildlife and Sport Fish
               Restoration Program Grants Awarded to the State of Oregon, Department of Fish
               and Wildlife, From July 1, 2010, Through June 30, 2012
               Report No. R-GR-FWS-0005-2013

       This report presents the results of our audit of costs claimed by the State of Oregon,
Department of Fish and Wildlife (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program. The audit included claims totaling $59 million on 140 grants that were
open during the State fiscal years that ended June 30, 2011, and June 30, 2012 (see Appendix 1).
The audit also covered the Department’s compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $64,480, however, due to unsupported
grant expenditures, unsupported in-kind contributions, and an over-reimbursement. We also
found that the Department had not (1) reconciled its land records with FWS, (2) reported
program income, (3) adequately managed its equipment, or (4) filed accurate financial reports
within required deadlines.

         We provided a draft report to FWS for a response. In this report, we summarize the
Department and FWS Region 1 responses, as well as our comments on the responses. Appendix
3 lists the status of the recommendations.

        Please provide us with a corrective action plan based on our recommendations by
October 24, 2013. The plan should include information on actions you and the Department have
taken or are planning to take to address the recommendations, the target dates and title(s) of the
official(s) responsible for implementation, and verification that FWS headquarters officials
reviewed and approved of the actions taken or planned by the Department.




                          Office of Audits, Inspections, and Evaluations | Herndon, VA
       Please address your response to:

               Hannibal M. Ware
               Eastern Regional Manager
               for Audits, Inspections, and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               381 Elden Street, Suite 1100
               Herndon, VA 20170

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

      If you have any questions regarding this report, please contact the audit team leader, Tom
Nadsady, at 916-212-4164, or me at 703-487-8011.


cc:    Regional Director, Region 1, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
  Background .......................................................................................................... 1
  Objectives ............................................................................................................ 1
  Scope .................................................................................................................... 1
  Methodology ........................................................................................................ 1
  Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 4
  Audit Summary .................................................................................................... 4
  Findings and Recommendations .......................................................................... 4
Appendix 1 ............................................................................................................ 13
Appendix 2 ............................................................................................................ 18
Appendix 3 ............................................................................................................ 19
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the State’s fish and game agency. Finally, Federal regulations and FWS guidance
require States to account for any income they earn using grant funds.

Objectives
We conducted this audit to determine if the State of Oregon (State), Department
of Fish and Wildlife (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and grant agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $59 million on the 140 grants
open during the State fiscal years (SFYs) that ended June 30, 2011, and June 30,
2012 (see Appendix 1). We report only on those conditions that existed during
this audit period. We performed our audit at Department headquarters in Salem,
OR, and visited one wildlife division office, one field office, four wildlife
management areas, and seven other locations (see Appendix 2). We performed
this audit to supplement—not replace—the audits required by the Single Audit
Act Amendments of 1996 and by Office of Management and Budget Circular
A-133.

Methodology
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested records and
conducted auditing procedures as necessary under the circumstances. We believe


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.




                                                                                      1
that the evidence obtained from our tests and procedures provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor-
and license-fee accounting systems and tested their operation and reliability.
Based on the results of initial assessments, we assigned a level of risk to these
systems and selected a judgmental sample of transactions for testing. We did not
project the results of the tests to the total population of recorded transactions or
evaluate the economy, efficiency, or effectiveness of the Department’s operations.

We relied on computer-generated data for other direct costs and personnel costs to
the extent that we used these data to select Program costs for testing. Based on our
test results, we either accepted the data or performed additional testing. For other
direct costs, we took samples of costs and verified them against source documents
such as purchase orders, invoices, receiving reports, and payment documentation.
For personnel costs, we selected Department employees who charged time to
Program grants and verified their hours against timesheets and other supporting
data.

Prior Audit Coverage
On February 26, 2009, we issued “U.S. Fish and Wildlife Service Wildlife and
Sport Fish Restoration Program Grants Awarded to the State of Oregon,
Department of Fish and Wildlife, From July 1, 2005, Through June 30, 2007”
(Report No. R-GR-FWS-0010-2008). We followed up on all 10 recommendations
in the report and found that the U.S. Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget (PMB) considered the 10
recommendations resolved but not implemented.

Our current audit scope included the areas covered in the prior audit. We report
conditions that still need improvement in the “Findings and Recommendations”
section of this report, and both repeat the relevant recommendations from our


                                                                                   2
prior report and make new recommendations. Documentation on the
implementation of repeat recommendations should be sent to PMB.

We reviewed single audit reports and comprehensive annual financial reports for
SFYs 2011 and 2012. None of these reports contained any findings that would
directly affect the Program grants.




                                                                                  3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, the following conditions that resulted in our
findings, including questioned costs totaling $64,480.

   A. Questioned Costs.

       1. Unsupported Costs. The Department did not have supporting
          documents for two grant expenditures totaling $35,279 (Federal share
          $26,459).

       2. Unsupported In-Kind Contributions. The Department did not have
          supporting documentation for expenditures totaling $7,899 (State
          share) resulting in a potential over-reimbursement of $23,697 (Federal
          share).

       3. Excess Reimbursement. The Department did not have State share to
          match a claimed reimbursement of $5,504 (Federal share).

   B. Unreconciled Real Property Records. The Department had not
      reconciled its Program-funded real property records with those of FWS.

   C. Unreported Program Income. The Department did not report program
      income earned from parking fees and employee housing rentals in a
      wildlife management area.

   D. Inadequate Equipment Management Records. The Department did not
      maintain accurate and complete equipment records.

   E. Late and Inaccurate Federal Financial Reports. The Department
      submitted late and inaccurate Federal Financial Reports.

Findings and Recommendations
A. Questioned Costs—$55,660

   1. Unsupported Costs—$26,459

The Department is required to keep accurate and complete accounting records of
Program and license expenditures. Based on our test of 108 expenditures (79
grant and 29 license) for SFYs ending June 30, 2011, and June 30, 2012, we



                                                                                  4
found that the Department could not provide supporting documents for two grant
expenditures totaling $35,279 (Federal 75 percent share $26,459).

The two expenditures were charged in SFY 2011 and consisted of $22,500 for
shooting range grants and hunter education enhancements (Grant No. W-88-HS-
19) and $12,779 for marine non-salmonid recreational fishery studies (Grant No.
F-128-R-24).

The Code of Federal Regulations (43 C.F.R. § 12.61(d)) contains provisions and
principles on reimbursement of eligible costs and allows FWS to reimburse States
up to 75 percent of the eligible costs incurred under the grants.

The regulations (2 C.F.R. § 225, Appendix A (C)(1)(j)) also state that for costs to
be allowable they must be adequately supported.

In addition, the Oregon Accounting Manual § 10.40.00 provides that required
documentation must be maintained for audit purposes.

A Department official stated the supporting documents for the two expenditures
were misplaced. Without adequate documentation, FWS cannot determine if
Program costs are reasonable and necessary to achieve Program purposes.

Recommendations

We recommend that FWS require the Department to:

    1. Resolve the unsupported costs of $35,279 ($22,500 on grant W-88-
       HS-19 and $12,779 on grant F-128-R-24); and

    2. Follow its policies and procedures to maintain adequate supporting
       documentation.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented.




                                                                                  5
   2. Unsupported In-Kind Contributions—$23,697

Under the Program, the State must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
Non-cash, or in-kind, contributions may be used to meet the State’s matching
share of costs, and as with costs claimed for reimbursement, the State must
support the value of these contributions.

The Department’s matching share of costs on its aquatic education program grant
included in-kind contributions consisting of the value of volunteer labor hours.
The Department used volunteer hours from classroom instruction, activities, and
family and weekend fishing events as an in-kind match for Program grant F-138-
AE-24. The Department used a Microsoft Access database to track the volunteer
hours, which were entered manually using instructor course/event reports that
identified the class or event, date, and volunteers’ signatures. We found that the
use of multiple databases resulted in reporting duplicate hours, and some of the
instructors combined classes over a 6-month period (January through June 2011)
into one report that could not be adequately supported.

The regulations (43 C.F.R. § 12.64(b)(6)) outline requirements for matching or
cost-sharing records and state that, to the extent feasible, volunteer services will
be supported by the same methods that the organization uses to support the
allocability of regular personnel costs.

The Department used certified time sheets for each pay period to track staff hours
and benefit programs. Therefore, volunteer hours should have been maintained
individually by class given instead of combining hours over a 6-month period into
one report.

Because the Department could not support $7,899 of in-kind contributions—its
25 percent share of volunteer hours claimed on the Program—we question the
$23,697 (75 percent) Federal share associated with these costs.

 Recommendation

 We recommend that FWS work with the Department to resolve the $23,697
 of unsupported costs on Program grant F-138-AE-24.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.



                                                                                       6
OIG Comments
We consider the recommendation resolved but not implemented.

   3. Excess Reimbursement—$5,504

To determine whether the Department met its matching requirements needed to
earn Federal reimbursement (43 C.F.R. § 12.61(d)), we verified that costs claimed
were supported by sufficient costs recorded in the State’s accounting system.
Based on our review, we found the Department had not met its matching share on
grant F-186-R-8. We therefore question $5,504 in excess reimbursement.

                          Questioned Grant Costs
 Amount reimbursed                                                   $135,613
 Costs required to justify reimbursement                               180,817
 Less costs supported                                                (173,478)
 Shortage – questioned costs                                             7,339
 Questioned costs – Federal share                                       $ 5,504

We found that the grant’s Federal Financial Report (SF-425) was inaccurate
because the Department had based its reimbursement on the latest cost report
provided by a project manager who had not spent all of the budgeted funds. In
addition, the SF-425 was not manually checked to ensure the computations were
correct.

Recommendations

We recommend that FWS require the Department to:

    1. Revise the SF-425 for the F-186-R-8 grant to show actual State share
       expenditures and the correct amount of Federal reimbursement;

    2. Repay the overdrawn amount;

    3. Create policies and procedures to instruct Department personnel on
       how to drawdown Federal funds; and

    4.   Provide training to Department personnel based on the policies and
         procedures created.


Department Response
Department officials concurred with the finding and recommendations.




                                                                                  7
FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented.

B. Unreconciled Real Property Records

In the prior OIG audit (Report No. R-GR-FWS-0010-2008), we found that the
Department had not maintained accurate and complete land records and had not
reconciled its land records with those maintained by FWS. We recommended that
the Department update its official land records, reconcile its land records with
FWS records, and implement procedures to ensure supervisors are aware of lands
under their supervision and are monitoring lands for compliance with Program
requirements. Since the prior audit, the State has upgraded its land records to
include additional information necessary to ensure the data is complete and
accurate but has not reconciled land records with FWS or implemented sufficient
procedures for real property to address the previous audit issue.

The regulations (50 C.F.R. § 80.90(f)) require the State to maintain control of all
assets acquired under the grant to ensure that throughout their useful life they
serve the purpose for which they were acquired.

This issue is outstanding since the Department and FWS officials have been
unable to commit resources to the land reconciliation. In addition, field managers
do not have an effective mechanism to identify land under their supervision or a
process in place to ensure compliance with Program requirements. Without
accurate records, the Department cannot ensure accountability and control of land
purchased with Program funds.

We are therefore repeating recommendations D.1, D.2, and D.3, which will be
tracked under the resolution process for the prior audit.

 Repeat Recommendations

 We recommend that FWS require the Department to:

    1. Update its official land records;

    2. Reconcile its land records with FWS records; and

    3. Develop and implement procedures to ensure supervisors are aware of
       lands under their supervision and that a monitoring process is
       established to inspect lands regularly for compliance with Program
       requirements.


                                                                                      8
Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented.

C. Unreported Program Income

According to the Department’s grant application, 55 percent of the beaches on
Sauvie Island are used annually by the public. Based on our prior audit report
(Report No. R-GR-FWS-0010-2008), FWS and the Department agreed that
program income was to be accurately recorded and reported for Sauvie Island.

For SFY 2011, the Department did not report program income earned at Sauvie
Island Wildlife Management Area from parking fees and housing rental for
employees on its SF-425 for Program grant W-22-D-65. Parking revenue at
Sauvie Island (revenue object codes 480 and 481) in SFY 2011 totaled $345,504.
We could not determine the amount of employee housing rental at Sauvie Island
because housing revenue is coded under one object code (620).

For SFY 2012, the Department reported $250,499 of program income on Program
grant W-22-D-66, of which only $17,356 was expended. The Department drew
down Program grant funds of $233,143 ($250,499 less $17,356), instead of
expending the remaining program income before drawing down Federal funds.
We determined that parking revenue at Sauvie Island for SFY 2012 totaled
$234,489. We could not determine the amount of employee housing rental.

According to 43 C.F.R. § 12.65(b), program income includes gross income that a
grantee earns from a grant-supported activity or only from the grant agreement
during the grant period. The regulations (43 C.F.R. § 12.65(g)(2)) permit, when
authorized, program income to be added to the funds committed to the grant
agreement by the Federal agency and the grantee and be used for grant purposes.

The regulations (43 C.F.R. § 12.61(f)(2)) also require that grantees disburse
program income, rebates, refunds, contract settlements, audit recoveries, and
interest earned on such funds before requesting reimbursement.

Poor communication between the Department’s program and financial personnel
resulted in program income not being reported or expended before drawing down
Federal funds.




                                                                                  9
The Department should have reported and expended program income prior to
requesting reimbursement. As a result, the Department may have obtained excess
reimbursement from FWS.

 Recommendation

 We recommend that FWS work with the Department to resolve the
 unreported program income on Program grant W-22-D-65 and unexpended
 program income on Program grant W-22-D-66.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented.

D. Inadequate Equipment Management Records

The Department did not maintain accurate and complete equipment records. We
tested a sample of equipment records contained in the fixed-asset database during
our site visits. Of the 56 items sampled from the database, 8 could not be found at
the locations indicated in the database. Since four of the items did not have an
acquisition cost entered, we used the restoration value to determine that the eight
items originally cost about $63,167. Since all of the items are over 17 years old,
however, it may be that they have been disposed of but the database has not been
updated.

We also noted other errors in the database. First, the database included a field for
building square footage amounts, but the square footage amounts for many
buildings are duplicated in the land acreage field. The database also has a vehicle
license plate field, but many vehicle plate numbers are instead included in the
asset property-number field. Finally, the acquisition field is empty for many
items.

The regulations (43 C.F.R. § 12.72(d)(1)) require each State to maintain complete
property records. The State of Oregon Accounting Manual, Section 10.50.00.PR,
states: “Agency management is responsible to ensure that internal controls are
sufficient to provide reasonable assurance that State assets are not lost or
stolen. . . . The administrative head of each agency has a responsibility to
maintain a system (manual or automated) which will assure that the State’s



                                                                                  10
property (capital and non-capital) is accounted for and classified properly,
accurately, and systematically.”

The Department’s equipment records were inaccurate and incomplete because the
Department had not committed sufficient resources to management of fixed asset
records. Without accurate records, the Department cannot ensure accountability
and control of equipment purchased with Program funds.

Recommendation

We recommend that FWS work with the Department to update its official
fixed asset records for the eight items not found and errors found in the
database fields.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented.

E. Late and Inaccurate Federal Financial Reports

The Department is required to submit SF-425s to document Program grant
expenditures to FWS within 90 days of the ending grant period. With FWS
approval, this reporting period can be extended 90 days. Of the 140 grants that
required SF-425s to be submitted to FWS, the Department submitted 48 reports
between 2 and 14 months late, and on average, each report was submitted more
than 5 months after the allowed 180-day extension.

In addition, the Department submitted initial SF-425s for four grants that
indicated it did not have sufficient State share to earn the Federal reimbursement
and may have obtained excess reimbursement of $734,528.

The Department made corrections to these reports between 2 and 7 months after
the initial report was submitted to FWS. The corrections reported additional
expenditures sufficient to support grant reimbursements.

A Department official stated the late submission of SF-425s was due to a new
FWS accounting system. The Department’s SF-425s were inaccurate because they
were not independently reviewed prior to submission to FWS.



                                                                                  11
Until the Department ensures that SF-425s comply with reporting requirements,
FWS may not be able to rely on the reports to determine whether Program funds
were expended appropriately and whether grant objectives were met.

Recommendation

We recommend that FWS work with the Department to ensure timely and
accurate submission of SF-425s.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented.




                                                                            12
Appendix 1
                           State of Oregon
                 Department of Fish and Wildlife
              Financial Summary of Review Coverage
                July 1, 2010, Through June 30, 2012

   Grant       Grant        Claimed        Cost       Unsupported
  Number      Amount         Costs       Exception       Costs
F-97-R-37       $143,921      $106,244
F-97-R-38        135,436       107,205
F-97-R-39         83,803       455,623
F-104-R-31       183,362       142,767
F-104-R-32       180,828       147,363
F-104-R-33       181,327       181,327
F-108-R-31       384,652       342,888
F-108-R-32       386,456       349,552
F-108-R-33       369,753       357,576
F-111-D-255      675,000       695,256
F-111-D-257      321,891       320,818
F-111-D-258      599,216       609,216
F-111-D-260      670,000       591,640
F-111-D-263      170,000       241,925
F-111-D-264      500,000       378,685
F-111-D-265       79,725        74,454
F-111-D-266      255,000       227,430
F-111-D-267    1,350,000     1,579,071
F-111-D-268      420,000       313,190
F-111-D-269      419,457             0
F-111-D-270      617,500       503,048
F-111-D-271      158,500        74,454
F-115-R-29       203,400       190,653
F-115-R-30       205,706       202,539
F-115-R-31       194,062       194,062
F-119-R-26       788,599       721,531
F-119-R-27       788,600       691,363
F-119-R-28       743,710       743,710


                                                                13
   Grant       Grant       Claimed        Cost      Unsupported
  Number      Amount        Costs       Exception      Costs
F-121-D-25     1,235,761    1,194,985
F-121-D-26     1,253,673    1,236,044
F-121-D-27     1,280,465    1,266,537
F-128-R-24       506,223      506,223                     $9,584
F-128-R-25       504,605      504,614
F-128-R-26       487,042      447,808
F-136-R-23       365,212      365,212
F-136-R-24       482,378      482,377
F-136-R-25       455,623       83,769
F-138-AE-23      420,228      578,268
F-138-AE-24      420,227      544,953                     23,697
F-138-AE-25      366,160      553,627
F-157-R-17       166,802      166,801
F-157-R-18       165,904      165,904
F-157-R-19       144,890      145,089
F-160-R-15        70,044       70,044
F-160-R-16        74,113       74,113
F-160-R-17        70,157       70,155
F-163-R-15       584,157      572,588
F-163-R-16       584,154      579,865
F-163-R-17       492,318      490,284
F-166-D-13     2,859,336    2,752,587
F-166-D-14     3,009,789    2,859,313
F-166-D-15     2,853,638    2,859,243
F-168-R-13        84,802       65,409
F-168-R-14        86,817       78,931
F-168-R-15        82,015       43,469
F-171-R-12       844,737      841,437
F-171-R-13       844,739      785,491
F-171-R-14       777,672      776,684
F-177-D-11        31,002       22,221
F-177-D-12        30,737       27,796
F-177-D-13        30,322       23,653
F-178-R-10       161,323      153,701


                                                              14
   Grant      Grant       Claimed        Cost       Unsupported
  Number     Amount        Costs       Exception       Costs
F-178-R-11      157,762      156,764
F-178-R-12      156,800      156,781
F-181-D-10       80,628       80,628
F-181-D-11       80,569       68,707
F-181-D-12       76,475      156,781
F-182-C-5       159,000      159,113
F-182-C-6       159,000            0
F-184-T-8       139,485      137,883
F-184-T-9       139,486      139,481
F-184-T-10      131,895      131,895
F-185-P-7       264,714      258,000
F-185-P-8       268,803      257,673
F-185-P-9       246,383      239,880
F-186-R-7       193,703      176,372
F-186-R-8       180,818      178,983       $5,504
F-186-R-9       172,759      178,874
F-188-D-6        40,728       40,728
F-188-D-7        44,798       44,797
F-188-D-8        42,445       42,445
F-191-R-3        79,602       65,961
F-191-R-4       180,493      139,953
F-191-R-5       120,408       43,676
FW-20-T-26      380,449      334,944
FW-20-T-27      383,053      330,853
FW-20-T-28      411,003      189,031
FW-21-D-25      113,551      107,174
FW-21-D-26       55,569       41,757
W-9-D-69        647,711      493,387
W-9-D-70        958,718      529,893
W-22-D-65       823,695      797,501
W-22-D-66       907,570      859,574
W-32-D-30       600,807      466,100
W-32-D-31       594,546      578,365
W-38-D-58     1,804,045    1,725,428


                                                              15
  Grant       Grant       Claimed        Cost      Unsupported
 Number      Amount        Costs       Exception      Costs
W-38-D-59     1,758,551    1,674,627
W-45-D-59       719,573      726,322
W-45-D-60       630,227      628,447
W-46-D-56       257,576      257,575
W-46-D-57       256,590      234,762
W-47-D-57       302,084      301,215
W-47-D-58       281,738      281,611
W-48-D-57       283,452      278,064
W-48-D-58       298,128      282,071
W-55-D-51       302,030      302,029
W-55-D-52       300,854      297,060
W-71-HS-40      830,656      917,417
W-71-HS-41      829,992    1,018,445
W-72-D-34       588,306      493,387
W-72-D-35       649,233      647,415
W-73-D-27       571,752            0
W-73-D-28       505,602      537,911
W-87-R-27       338,101      327,775
W-87-R-28       360,903      360,903
W-88-HS-19      195,381      368,576                     16,875
W-88-HS-20      195,380      336,497
W-96-C-11       514,958      290,437
W-96-C-12       396,292      296,564
W-97-R-11       496,913      741,160
W-97-R-12       514,041      512,671
W-98-R-10       507,608      513,231
W-98-R-11       380,725      349,679
W-101-R-6       498,534      308,753
W-101-R-7       612,595      435,767
W-102-R-6       588,081      489,075
W-102-R-7       221,977      221,916
W-104-R-1       245,864      240,506
W-104-R-2       597,820      388,368
W-105-D-1       171,435      157,076


                                                             16
   Grant      Grant      Claimed         Cost      Unsupported
 Number      Amount        Costs       Exception      Costs
W-105-D-2        180,952     180,952
W-106-D-1         30,000      21,535
W-107-D-1        110,466      87,988
W-107-D-2        110,043      89,989
W-109-D-1        130,000     129,961
W-109-D-2        130,000     100,000
W-110-R-1        128,856     106,951
W-110-R-2        128,023      87,988
W-111-R-1      1,189,987     886,886
W-111-R-2      1,121,250     919,273
Total       $63,296,969 $59,134,013       $5,504       $50,156




                                                             17
Appendix 2
                     State of Oregon
              Department of Fish and Wildlife
                       Sites Visited

                       Headquarters
                          Salem

                 Wildlife District Office
               Umpqua Watershed (Roseburg)

                        Field Office
                         Lakeview

                Wildlife Management Areas
                          Denman
                        E. E. Wilson
                         Fern Lake
                       Summer Lake

                            Other
                 Canyonville Acclimation Site
           M. James Gleason Memorial Boat Ramp
                 Millicoma Interpretive Center
      Port of Astoria East Mooring Fish Cleaning Station
         Siletz River Bear Creek Park Boating Access
                          Warner Unit
                 Winchester Dam Fish Ladder




                                                           18
Appendix 3
                              State of Oregon
                       Department of Fish and Wildlife
              Status of Audit Findings and Recommendations

Recommendations                Status                  Action Required
                                                 Based on the FWS response,
                                                  the corrective action plan
                                                should include information on
                                                 actions taken or planned to
                                               address the recommendations,
                                                target dates and title(s) of the
                                                   official(s) responsible for
                                                      implementation, and
                        U.S. Fish and Wildlife
                                                     verification that FWS
                            Service (FWS)
                                               headquarters officials reviewed
                              management
  A.1.1, A.1.2, A.2,                             and approved of the actions
                        concurred with these
 A.3.1, A.3.2, A.3.3,                              taken or planned by the
                          recommendations,
 A.3.4, C, D, and E.                                      Department.
                             but additional
                             information is
                                                       We will refer the
                                needed.
                                               recommendations not resolved
                                                or implemented at the end of
                                                  90 days (after October 24,
                                                     2013) to the Assistant
                                                      Secretary for Policy,
                                               Management and Budget (PMB)
                                                for resolution and tracking of
                                                        implementation.
                                 Repeat
                          recommendations
                            from our prior
                         report (Report No.
                          R-GR-FWS-0010-
                                                    Provide documentation
       Repeat                     2008,
                                                regarding the implementation
 Recommendations          Recommendations
                                                of these recommendations to
  B.1, B.2, and B.3      D.1, D.2, and D.3).
                                                               PMB.
                           PMB considered
                                  these
                          recommendations
                           resolved but not
                             implemented.




                                                                              19
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
